No

]

.M'W>
S'-T

3fa ®[)e

Supreme Court of tfje ®mteb g>tate£

ocr.r.F O, 1 Ht CLERK

TIMOTHY P. MURPHY,
Petitioner,
v.

SUSAN STACY,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Timothy P Murphy
905 Northern Dancer Way, #101
Casselberry, FL 32707
(407) 913-3680
timmleocf@live.com
Petitioner, appearing pro se

RECEIVED
DEC - 2 2020
©FFICEOF THE CLERK
SUPREME COURT, U.S.

1

QUESTIONS PRESENTED
1. Whether under any circumstances in their appli­
cation of common law, federal courts are allowed the
authority or discretion to disregard this Court’s opin­
ion in Erie Railroad Co. u. Tompkins, as in this case by
their failure to consider the requisite requirements to
invoke a Florida trial court’s subject matter jurisdic­
tion established unanimously by opinions of the state’s
highest court, and instead apply the doctrine of Swift
v. Tyson.
2. Whether as the subject courts state and federal did
determine by their decisions, a court retains the au­
thority and jurisdiction to enter and enforce a sum­
mary judgment after denying the affected party their
constitutional right to be heard.

11

PARTIES TO THE PROCEEDING
Petitioner Timothy P. Murphy was the plaintiff in the
district court proceedings and appellant in the court of
appeals proceedings. Respondent Susan Stacy was the
defendant in the district court proceedings and appel­
lee in the court of appeals proceedings.
RELATED CASES
•

Christiana Trust u. Timothy P. Murphy,
No. 2010CA005287, Circuit Court for the
18th Judicial Circuit in and for Seminole
County, FL. Judgment entered July 16,
2014

•

Timothy P. Murphy v. Christiana Trust,
No. 5D16-2854, District Court of Appeal
of the State of Florida 5th District. Judg­
ment entered April 25, 2017

•

Timothy P. Murphy u. Susan Stacy, No.
6:19-cv-00404-Orl-37LRH-RBD, United
States District Court for the Middle Dis­
trict of Florida Orlando Division. Judg­
ment entered August 13, 2019

•

Timothy P. Murphy u. Susan Stacy, No.
19-13553-GG, U.S. Court of Appeals for
the Eleventh Circuit. Judgment entered
April 20, 2020

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.................................

1

PARTIES TO THE PROCEEDING.......................

11

RELATED CASES..................................................

li

TABLE OF CONTENTS........................................

in

TABLE OF AUTHORITIES...................................

Vll

PETITION FOR A WRIT OF CERTIORARI......

1

OPINIONS BELOW................................................

1

JURISDICTION......................................................
STATUTES AND CONSTITUTIONAL PROVI­
SIONS INVOLVED.............................................

1
1

INTRODUCTION AND STATEMENT OF THE
CASE....................................................................

2

REASONS FOR GRANTING THE PETITION....

11

I.

In its Affirmation of the District Court’s
Decision, the 11th Circuit Court Failed to
Notice or Consider the District Court’s
Failure to Apply State Law When Deter­
mining its Findings and Judgment........... 12
A. Both Federal Courts Failed to Apply to
Their Decisions After Having Been
Properly Raised Before Them, the
State’s Specific Mandatory Require­
ments to Invoke a Florida Trial Court’s
Subject Matter Jurisdiction.................. 12

IV

TABLE OF CONTENTS - Continued
Page
B. In its Decision, the Circuit Court Re­
lied on the Appellee/Respondent’s
Findings in the State Trial Court Case
She Presided Over to Determine the
Existence of the Court’s Jurisdiction
Over the Case, After Petitioner Had
Properly Raised Before the Circuit
Court, Florida Supreme Court Deci­
sions That Unanimously Defined Them
as False...................................................
C. Left Unchallenged, the Legal Prece­
dent Inferred by the 11th Circuit’s
Findings and Decision Threaten to Di­
minish the Effects of This Court’s De­
cision in Erie Railroad v. Tompkins ....
II. Unchallenged, the 11th Circuit’s Decision
Serves to Contradict Other Significant
Precedents of This Court, and to Encour­
age Unjust Decisions Similar to the Judg­
ment Presently in Question........................
A. The U.S. District and Circuit Courts
Failed to Consider the Recorded Deni­
als of Murphy’s Right to be Heard in the
State Court Action Before it Issued the
Summary Judgment Against Him.........
B. In Both the 11th U.S. Circuit Court’s
Twelve (12) Page Decision and in its
Order Denying Murphy’s Petition
for Panel Rehearing, it Failed to
Acknowledge or Consider Murphy’s Pri­
mary Claim............................................

13

15

16

16

18

V

TABLE OF CONTENTS - Continued
Page
The Pattern of Civil Rights Violations, and
the Apparent Disregard of U.S. Supreme
Court Precedent by Lower Courts Evi­
denced in This Case, May Warrant Scru­
tiny.................................................................
A. The 11th Circuit Court Declined to
Consider Murphy’s Claim of a Con­
spiracy Against His Rights by Falsely
Claiming “Murphy Failed to Raise
This Argument Before the District
Court”.....................................................
B. The Recorded Actions of the State and
Federal Courts Raise Concerns as to
Their Abilities to Properly Administer
Justice.....................................................
C. Jurists in the State and Federal
Courts Chose to Unjustly Withhold
Constitutional Protections..................
D. The District and Circuit Courts’ Find­
ing for Absolute Judicial Immunity
Were Unfounded and Prejudicial........
E. The Florida Attorney General’s Ap­
pearance in Representation of Stacy
was Prejudicial and Presented a “Con­
flict of Interest”.....................................
F. The Florida Attorney General’s Repre­
sentation of Stacy Denied Murphy
Civil Rights Protections Her Office is
Duty Bound to Provide.........................
CONCLUSION
III.

18

19

19

20

21

23

24
26

VI

TABLE OF CONTENTS - Continued
Page
APPENDIX
Opinion, United States Court of Appeals for the
Eleventh Circuit (April 20, 2020)................... App. 1
Final Judgment, United States District Court
for the Middle District of Florida, Orlando Di­
App. 14
vision (August 13, 2019)
Order Denying Rehearing, United States Court
of Appeals for the Eleventh Circuit (July 1,
App. 24
2020)
Citations for Statutes/Constitutional Provisions
App. 25
Involved

Vll

TABLE OF AUTHORITIES
Page
Cases
Armstrong v. Manzo, 380 U.S. 545 (1965)

2,11,17

Bradley u. Fisher, 3 Wall. 335, 20 L.Ed. 646
(1871)....................................................................... 3,18
Erie Railroad Co. v. Tompkins, 304 U.S. 64
passim
(1938)
Elliott v. Lessee ofPeirsol, 26 U.S. 328 — Supreme
Court (1828)...........................................................

22
Grannis v. Ordean, 234 U.S. 385 (1914)................ ..2,17
Johnson v. Zerbst, 304 U.S. 458 (1938).................. 11,17

Kozich v. Hartford Ins. Co., 609 So. 2d 147 — Fla:
Dist. Court of Appeals (4th Dist. 1992)............

17

Lovett v. Lovett, 93 Fla. 611,112 So. 768 (Fla: Su­
preme Court 1927)................................................

13

Meadows v. Edwards, 82 So. 2d 733 (1955 Su­
preme Court of Florida. Special Division, A.)..

14

Okeechobee Ins. Agency, Inc. v. Barnett Bank of
Palm Beach Cnty., 434 So. 2d 334 (Fla. 4th
DCA 1983)..............................................................

4

Pro-Art Dental Lab, Inc. v. V-Strategic Group,
LLC, 986 So. 2d 1244 - (Fla: Supreme Court
2007)........................................................................

13

Schuman v. Int’l Consumer Corp., 50 So. 3d 75
(Fla. 4th DCA 2010)..............................................

17

State ex rel. Fulton Bag & Cotton Mills v. Burn­
side, 153 Fla. 599 (Fla. 1943)............. ................

17

Vlll

TABLE OF AUTHORITIES - Continued
Page
Stump v. Sparkman, 435 U.S. 349,98 S.Ct. 1099,
55 L.Ed.2d 331-Supreme Court (1978)...........

22

Zeller v. Rankin, 101 S.Ct. 2020,451 U.S. 939,68
L.Ed.2d 326(1981)............................................

23

Amendments
5th Amendment to the U.S. Constitution.... 7, 8, 9,11, 25
14th Amendment to the U.S. Constitution

passim

Statutes
18 U.S.C. § 241......

1, 7, 24

42 U.S.C. § 1983....

passim

Fla. Statute 44.102

4

Rules
Fla. R. Civ. P. 1.500(b).....

4

Fla. R. Civ. P. 1.510(c).....

16,17

Fla. R. Jud. Admin. 2.330

6,7

Fla. R. Jud. Admin. 2.505

5

American Bar Association Model Rules of Pro­
fessional Conduct..............................................

23

1
PETITION FOR A WRIT OF CERTIORARI
Timothy P. Murphy petitions for a writ of certio­
rari to review the judgment of the United States Court
of Appeals for the Eleventh Circuit in this case.

OPINIONS BELOW
The Eleventh Circuit’s opinion is reproduced at
App. 1. The Eleventh Circuit’s denial of petitioner’s
motion for reconsideration and rehearing is repro­
duced at App. 24. The opinion of the District Court for
the Middle District of Florida Orlando Division is re­
produced at App. 14.

JURISDICTION
The Court of Appeals entered judgment on April
20, 2020. App. 1. The court denied a timely petition for
rehearing on July 1, 2020. App. 24.
This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
18 U.S.C. § 241 Conspiracy Against Rights. App. 25.
42 U.S.C. § 1983 Civil Action for Deprivation of
Rights. App. 25.

2

The 14th Amendment’s Provision for Due Process
Before Being Deprived of Property. App. 26.

INTRODUCTION AND
STATEMENT OF THE CASE
This petition involves Federal District and Circuit
Court decisions that challenge certain determinations
of this Court, including its finding in Erie Railroad Co.
v. Tompkins (also “Erie”) that in matters of common
law including those of tort, the law to be applied in any
case is the law of the State1, and its decisions in cases
including Armstrong v. Manzo holding the “oppor­
tunity to be heard” to be “a fundamental requirement
of due process”2. The subject federal courts in reaching
their decisions, exercised authority that was deter­
mined by this Court in its Erie decision to be exclusive
to the states by failing to consider or to apply to their
findings and judgments, the legal requirements deter­
mined by decision of the state’s highest court3 to be

1 See Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
“[e]xcept in matters governed by the Federal Constitution or by
Acts of Congress, the law to be applied in any case is the law of
the State.”
2 See, e.g., Armstrong v. Manzo, 380 U.S. 545, 552 (1965) “A
fundamental requirement of due process is the opportunity to be
heard . . . see also Grannis v. Ordean, 234 U.S. 385, 394 (1914)
“The fundamental requisite of due process of law is the oppor­
tunity to be heard.”
3 See Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
“Whether the law of the State shall be declared by its Legislature

3

essential to invoke a Florida trial court’s subject mat­
ter jurisdiction (also “jurisdiction”), and then assuming
and applying common law conjured for the occasion,
resulting in decisions the petitioner (also “Murphy”) al­
leges to have denied the state its constitutional right
to establish legal protections for its citizens, and de­
prived its citizen, in this case Murphy, the benefits of
those constitutional protections.
Also of concern to the people, the subject Circuit
Court decision could be cited as grounds for state and
federal courts to deny them without loss of the courts’
authority or jurisdiction, the most basic and funda­
mental requirement of “Due Process”, that being their
right to an “opportunity to be heard” before being de­
prived of Life, Liberty, or Property, and as in this pre­
sent case, could allow federal courts to find for a judge’s
entitlement to absolute immunity against a federal
suit for redress for actions they take under “color of
law”, and in the known absence of all authority or ju­
risdiction as defined by relevant decisions of both this
Court and the state’s highest court, in direct contradic­
tion of this Court’s decision in Bradley v. Fisher that
“ . . . when the want of jurisdiction is known, no excuse
is permissible.”4
On 8-5-2010, Florida’s 18th Circuit Court allowed
JPMC Specialty Mortgage, LLC (also “JPMC”) to insti­
tute a residential foreclosure action against Murphy
in a statute or by its highest court in a decision is not a matter of
federal concern.”
4 See Bradley v. Fisher, 3 Wall. 335, 20 L.Ed. 646 (1871).

4
with a Complaint that by its false claims to standing,
failed to comply with Florida’s minimum requirements
to institute a suit in equity, establish standing to fore­
close, and most importantly, invoke a Florida trial
court’s subject matter jurisdiction. Murphy filed a
timely response to the complaint pro se and awaited
his day in court. On 3-27-2013 without the notice and
hearing required by Fla. R. Civ. R 1.500(b)5, a jurist
other than the presiding judge executed an Order of
Default against Murphy pursuant to a motion that was
not filed with the court until the following day, while
service on both the order and the belated motion were
withheld from him.
On 11-8-2013, Murphy filed an objection to the
state court’s Referral to Magistrate issued on 10-312013, instead requesting mediation in accordance with
State Statute 44.1026 and opting to have the case
heard by a judge, which the court’s order specifically
conferred. Still unaware of the underlying default and
awaiting either an order for mediation or his day in
court, on 7-15-2014, the presiding judge executed a De­
fault Final Judgment of foreclosure against Murphy
5 See, e.g., Okeechobee Ins. Agency, Inc. v. Barnett Bank of
Palm Beach Cnty., 434 So. 2d 334 (Fla. 4th DCA 1983) “[R]ule
1.500(b) requires notice and a hearing before entry of default
against a party who has filed a paper in the action.”
6 See, Fla. Statutes, 44.102(2) A court, under rules adopted
by the Supreme Court: (a) Must, upon request of one party, refer
to mediation any filed civil action for monetary damages, provided
the requesting party is willing and able to pay the costs of the
mediation or the costs can be equitably divided between the par­
ties, . . .

5

pursuant to the Plaintiff’s motion for final default filed
five (5) days earlier, denying Murphy the “notice” and
“hearing” required by the Fla. R. Civ. P., and the “op­
portunity to be heard” guaranteed by the state consti­
tution and the 14th Amendment.
After the second presiding jurist was reassigned,
the case was allegedly assigned to the respondent (also
“Stacy”), who proceeded to enforce the summary judg­
ment against Murphy and issue a Writ of Possession
for the plaintiff on 7-10-2017 after being judicially no­
ticed by Murphy on 5-31-2017, that the Court lacked
subject matter jurisdiction pursuant to the denials of
Murphy’s 14th Amendment “right to be heard” that
stood obvious on the record, and that the summary
judgment she was enforcing against him was issued
without authority or jurisdiction and was therefore
“Void”.
Stacy then continued to deny Murphy due process
and prevent him from challenging the “Void” summary
judgment by among other actions, allowing an attor­
ney to appear for the Plaintiff without “notice” to the
court or Murphy, and therefore without compliance
with Florida’s mandatory requirements to appear, be
considered an “attorney of record”, or to take any ac­
tion in the case7. Stacy then allowed that attorney
through his illegal appearance, to file dozens of docu­
ments to intimidate Murphy and confound his defense

7 See, Fla. R. Jud. Admin. 2.505

6

efforts8, including allowing him to file and maintain
on the docket as pending, multiple motions for Sanc­
tions, Attorney’s Fees, and Costs that were clearly
frivolous, with their appearance on the docket serv­
ing to deny Murphy his right to legal representation
to defend against allegations of the complaint, as
evidenced by the mere threat of the first motion
that caused the withdrawal of Murphy’s recently re­
tained counsel9.
Pursuant to Stacy’s continued actions that vio­
lated established procedure and denied Murphy due
process, including her denial of his 10-25-2018 objec­
tion to the illegal appearance of Plaintiff’s counsel in
which Murphy raised the severe injustices he was suf­
fering from that illegal appearance, including the dep­
rivation of his right to legal representation, and after
those facts were raised before her in multiple filings
and hearings, Murphy concluded that Stacy had no in­
tention of acknowledging the court’s denials of his
right to due process to allow for a just conclusion to the
suit, compelling him to file on 2-22-2019, a Motion to
Disqualify Stacy, which in spite of Fla. R. Jud. Admin.
8 The now four year ongoing appearance and actions of plain­
tiff’s counsel without the notice required by law are fully docu­
mented in the state court record of Case No: 2010CA005287.
9 Murphy did attempt to replace withdrawn counsel. The at­
torneys contacted admitted he had been denied due process and
that the summary judgment against him appeared void, yet they
declined the case citing the court’s apparent disdain for Murphy
by its constant actions to deny him due process, and the liability
they would assume pursuant to the pending though legally frivo­
lous motions for sanctions.

7

2.330 requiring her to disqualify herself, she denied on
2-26-2019, at which time Murphy could see no other
options then to file suit against her in federal court.
Murphy filed his 42 U.S.C. § 1983 (also “§ 1983”)
suit against Stacy on 3-1-2019 after which on 3-6-2019,
she recused herself from the state court case. After
having her violations of Murphy’s 5th and 14th
Amendment rights and Stacy’s unethical and allegedly
illegal actions against Murphy evidenced to have
been taken under “color of law” and in the known ab­
sence of all jurisdiction properly raised and evidenced
before it, and having been fully noticed of the state’s
established mandatory requirements to invoke a Flor­
ida trial court’s subject matter jurisdiction including
the filing of a “proper pleading” and of the Plaintiff’s
failure to comply with those requirements in any man­
ner, the U.S. District Court in direct violation of This
Honorable Court’s determination in Erie Railroad Co.
v. Tompkins, failed to apply those requirements estab­
lished by the Florida Supreme Court, instead presum­
ing requirements far less demanding and protective of
the people’s rights, and then subsequently assuming
for its ruling, that the state court’s designation of the
alleged case as a “foreclosure”, provided sufficient ju­
risdiction to entitle Stacy to absolute judicial immun­
ity (App. 20, f 2).
Murphy also raised to the District Court by Judi­
cial Notice filed on 7-29-2019, allegation supported by
prima facie evidence, of a conspiracy against his rights
as defined by 18 U.S.C. § 241, in which the state court
record evidenced Stacy to be complicit. On 8-13-2019,

8

the District Court dismissed Murphy’s § 1983 suit with
prejudice pursuant to what are evidenced to be find­
ings contrary to the opinions of both this Court and the
Florida Supreme Court, while failing to address the
raised conspiracy against rights still pending on its
docket.
On 9-11-2019, Murphy’s appeal was docketed in
the 11th U.S. Circuit Court in which he properly
raised and evidenced the state court’s and Stacy’s vio­
lations of his 5th and 14th Amendment rights, the
state court’s lack of jurisdiction during Stacy’s entire
tenure as presiding judge, her actions taken under
“color of law” and in the known absence of that juris­
diction that continue to this day to cause Murphy
harm, and the U.S. District Court’s disregard of the
State of Florida’s governing laws, procedures, and legal
precedents when reaching its decision. Murphy also
raised to the Circuit Court, the District Court’s failure
to address Murphy’s properly raised claim of the “Con­
spiracy Against Rights”.
In a twelve (12) page decision in which the Circuit
Court failed to address or acknowledge in any manner,
Murphy’s properly raised claims of the state court’s de­
nials of his “right to be heard”, or to include the term
“due process”, and in which it withheld its considera­
tion of his properly raised claim of a Conspiracy
Against Rights by falsely claiming Murphy had not
raised it in the District Court case, the Circuit Court
on 4-20-2020, entered judgment against Murphy, fol­
lowing the District Court by again disregarding the
precedents of Florida law establishing the mandatory

9
requirements to invoke the court’s jurisdiction, pre­
suming and applying lesser requirements that failed
to protect the people’s rights, failing to acknowledge
the state court’s denials of Murphy’s right to due pro­
cess evidenced in its record, and ignoring the state
court’s obvious absence of all jurisdiction during
Stacy’s tenure, allowing for its ruling affirming Stacy’s
entitlement to absolute judicial immunity.
On 5-11-2020, Murphy filed a seventeen (17) page
Petition for Panel Rehearing in which he dedicated five
(5) pages to again properly raising and evidencing the
claimed denials of his 5th and 14th Amendment right
to due process that the Circuit Court had failed to
acknowledge after reviewing his brief, including the
multiple denials of his right to be heard and defend in
the state court action. He also again raised the state
court Plaintiff’s failure to comply with the state’s man­
datory requirements to establish standing, to institute
a civil suit, and to invoke the state trial court’s subject
matter jurisdiction, and the Conspiracy Against Rights
that contrary to the Circuit Court’s claim, he had
properly raised in his District Court case.
Murphy also raised in his petition for rehearing,
the alleged conflict of interest the Office of the Florida
Attorney General’s representation of Stacy presented in
both the District Court case, and in the appeal, alleg­
ing that the bias demonstrated by her appearance, and
its false inference that Florida law supported Stacy’s
claim to have acted with jurisdiction, was intentionally
prejudicial by its influence on the U.S. District and Cir­
cuit Courts and their decisions. On 7-1-2020 in a one

10
(1) page decision that provided no reason or justifica­
tion, the 11th U.S. Circuit Court denied the petition for
rehearing.
On 8-26-2020, Murphy filed a Motion to Recall
Mandate in which he again raised to the Court, the
facts previously raised and evidenced before it that
the state court’s jurisdiction had never been invoked,
and that had it been invoked, it would have been lost
upon the violations of Murphy’s 14th Amendment
right to due process that stand blatant on the state
court record. On 10-26-2020, the Circuit Court denied
Murphy’s Motion to Recall Mandate with no stated
reason or justification.
Knowing it would be naive to believe that he was
the only pro se litigant to be denied constitutional pro­
tections by these courts, and after suffering over ten
(10) years of injustices at the hands of a state court and
seven (7) of its jurists, and now suffering as well from
the actions of four (4) federal court judges who had
been made fully aware by prima facie evidence of, the
violations of Murphy’s 14th Amendment rights, the
state court’s absence of all jurisdiction throughout the
now over ten (10) year tenure of that action, the evi­
denced conspiracy against his rights, and the federal
courts’ failure to consider the denials of his right to
due process or apply relevant state law when making
their determinations, Murphy concluded that no per­
son should be burdened with such deplorable treat­
ment of their rights and attacks on their livelihood as
he has now suffered at the hands of the subject courts
and their jurists, compelling him to seek through this

11
petition, action by This Honorable Court to protect
both himself and the people from what is evidenced to
be a growing intolerance within the subject courts of
our 5th and 14th Amendment rights, and their increas­
ing disdain for pro se litigants, even when as in this
case, the courts themselves force parties against their
will, to proceed so.

REASONS FOR GRANTING THE PETITION
Without the intervention of This Honorable Court,
the 11th U.S. Circuit Court’s decision and findings may
be construed by the lower courts to diminish and/or
deny precious constitutional protections that this
Court, in decisions that include Erie Railroad Co. v.
Tompkins, Armstrong v. Manzo, and Johnson v. Zerbst,
determined the people and the sovereign states to be
entitled.
Granting this pro se party’s petition, in which are
raised civil rights issues comparable to those histori­
cally considered by This Honorable Court to be of sig­
nificant importance to the people, stands to reaffirm to
them at a time of civil strife when that reassurance
will most benefit our nation, this Court’s commitment
to uphold and protect the constitutional rights of not
just the wealthy and powerful, but those of the com­
mon man as well.

12
I.

In its Affirmation of the District Court’s De­
cision, the 11th Circuit Court Failed to No­
tice or Consider the District Court’s Failure
to Apply State Law When Determining its
Findings and Judgment.

In their subject decisions, the U.S. District and Cir­
cuit Courts failed to apply the state’s laws relevant to
the common law issues being decided, and thereby
challenged by those decisions, This Honorable Court’s
determination in Erie Railroad Co. u. Tompkins (also
“Erie”), that a state’s laws and the prevailing decisions
of its highest court govern on all issues of common law
within a federal court action10.
A. Both Federal Courts Failed to Apply to
Their Decisions After Having Been Properly
Raised Before Them11, the State’s Specific Man­
datory Requirements to Invoke a Florida Trial
Court’s Subject Matter Jurisdiction that stand
clearly defined by decisions of the Florida Supreme
Court12. The District Court presumed the authority to
10 See Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
“[e]xcept in matters governed by the Federal Constitution or by
Acts of Congress, the law to be applied in any case is the law of
the State. Whether the law of the State shall be declared by its
Legislature in a statute or by its highest court in a decision is not
a matter of federal concern.”
11 The records of the U.S. District and 11th U.S. Circuit Court
confirm that the state’s established requirements to invoke a trial
court’s jurisdiction were properly raised before them, only to re­
main unacknowledged by either court, and never applied to their
decisions.
12 By decisions of its highest court, under Florida law, a trial
court’s jurisdiction remains at rest until “proper pleadings” are

13
determine that common law issue by the unfounded
determination (App. 20, % 2) it applied to its decision
that the state court’s designation of the subject foreclo­
sure case as a type normally heard by the court, served
to invoke its jurisdiction. The Circuit Court then af­
firmed in its order (App. 1) denying Murphy’s appeal
and by its subsequent denial (App. 24) of his petition
for panel rehearing, the District Court’s findings and
its decision dismissing Murphy’s § 1983 suit with prej­
udice pursuant to the application of their false as­
sumptions on Florida’s common law, made possible by
their disregard of this Court’s decision in Erie Railroad
Co. v. Tompkins.
B. In its Decision, the Circuit Court Relied
on the Appellee/Respondent’s Findings in the
State Trial Court Case She Presided Over to De­
termine the Existence of the Court’s Jurisdiction
Over the Case, After Petitioner Had Properly
Raised Before the Circuit Court, Florida Su­
preme Court Decisions That Unanimously
filed and service of “process” is achieved. See, e.g., Lovett v. Lovett,
93 Fla. 611, 112 So. 768, 775-76 (Fla: Supreme Court 1927) “If a
court enters an order prior to the filing of proper pleadings, the
court is said to lack jurisdiction . . . The jurisdiction and power of
a court remain at rest until called into action by some suitor; it
cannot, by its own action, institute a proceeding sua sponte. The
action of a court must be called into exercise by pleading and pro­
cess, prescribed or recognized by law[.]” See also Pro-Art Dental
Lab, Inc. v. V-Strategic Group, LLC, 986 So. 2d 1244 - (Fla: Su­
preme Court 2007) We take this opportunity to remind civil liti­
gants that “[a] complaint is . . . essential to initiate an action. . . .
[I] ts purpose is to invoke the subject matter jurisdiction of the
court and to give notice of the claim.”

14
Defined Them as False. The Circuit Court failed to
apply the opinions of the state’s highest court to deter­
mine the existence of the trial court’s subject matter
jurisdiction, instead applying trial court rulings made
by Stacy during her tenure as presiding judge. It is ev­
idenced in the state court record that the Plaintiff,
JPMC, failed by law to institute the foreclosure suit
by filing what the Florida Supreme Court defines as a
“sham and frivolous” pleading13 that falsely claimed
Fannie Mae owned the “note” and had authorized them
to foreclose, thus failing to comply with the state’s
mandatory requirements that “notice” be given and
“proper pleadings” be filed to institute a civil suit and
to invoke the court’s jurisdiction. Adding that the
court’s record also evidences violations of Murphy’s
14th Amendment right to due process that would have
rendered it without jurisdiction had it been invoked,
no legal justification was ever presented to the District
or Circuit Court that would allow Stacy’s findings for
the state court’s jurisdiction, or for the Circuit Court’s
reliance on them.
Murphy raised to both federal courts that any re­
liance on Stacy’s finding affirming the existence of the
court’s subject matter jurisdiction in the foreclosure
case, that stands contrary to every relevant decision of
the Florida Supreme Court pursuant to the Plaintiff’s
recorded failure to invoke the court’s subject matter
13 See, e.g., Meadows v. Edwards, 82 So. 2d 733 (1955 Su­
preme Court of Florida. Special Division A.), “Sham and Frivolous
Pleadings. A sham pleading is defined as one that while in good
form is false in fact,. . . ”.

15
jurisdiction at inception and the court’s subsequent de­
nial of due process, would be unfounded and contrary
to the proper administration of justice, yet after being
provided those applicable and governing decisions, the
federal courts proceeded to rely on Stacy’s false claim
for their determinations.
C. Left Unchallenged, the Legal Precedent
Inferred by the 11th Circuit’s Findings and Deci­
sion Threaten to Diminish the Effects of This
Court’s Opinion in Erie Railroad v. Tompkins, by
providing possible grounds14 for federal courts to again
assume the authority and discretion to disregard state
law when determining issues of common law in cases
before them and thus “invade” on the right this Court
found in Erie to be “reserved by the constitution for the
several states”15, to determine the common law and le­
gal procedures to be applied within their borders, and
by allowing those courts in their decisions, to deny the
people, the benefits and protections their state’s laws
and its established legal procedures and decisions are
intended to provide.

14 Left unchallenged, the 11th Circuit’s decision when as­
sumed to be founded on the facts in evidence in the appeal, can
then be cited as grounds for federal courts to disregard state law
relevant to the action before them.
15 See Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938) “In
disapproving the doctrine of Swift v. Tyson, the Court does not
hold unconstitutional § 34 of the Federal Judiciary Act of 1789 or
any other Act of Congress. It merely declares that, by applying the
doctrine of that case, rights which are reserved by the Constitu­
tion to the several States have been invaded.” P. 304 U.S. 79.

16
II.

Unchallenged, the 11th Circuit’s Decision
Serves to Contradict Other Significant
Precedents of This Court, and to Encour­
age Unjust Decisions Similar to the Judg­
ment Presently in Question.

The Circuit Court’s affirmation of the District
Court’s finding for absolute immunity by its failure to
acknowledge or consider after being properly raised,
the state court’s recorded denials of Murphy’s right to
due process including its denial of any opportunity for
Murphy to be heard in the state court action before is­
suance of the summary judgment against him, directly
contradicts precedent of This Honorable Court and the
Florida Supreme Court by its determinations that the
state trial court’s denial of a party’s 14th Amendment
right to an “opportunity to be heard”, even when as in
this case the denial is evidenced to be intentional, no
longer rises to a level where courts state or federal con­
sider it a violation of due process, and that the denial
of that right carries no detrimental effect for the court
or its judge’s authority or jurisdiction in said case, or
to the validity of a resulting judgment, providing
grounds for similar unjust actions and decisions by
other courts.
A. The U.S. District and Circuit Courts Failed
to Consider the Recorded Denials of Murphy’s
Right to be Heard in the State Court Action Be­
fore it Issued the Summary Judgment Against
Him. Fla. R. Civ. P. 1.510(c) provides for “notice” and a

17
“hearing” before issuance of a summary judgment16,
and the previous rulings of both This Honorable Court
and the State of Florida’s higher courts have well es­
tablished the “opportunity to be heard” to be “a funda­
mental requirement of due process”17. Those courts
have also determined the denial of a party’s due pro­
cess right to be heard as was denied Murphy by the
state court, to be fatal to a court’s subject matter juris­
diction18 and the validity of its subsequent judgments19.

16 See, e.g., Kozich v. Hartford Ins. Co., 609 So. 2d 147 — Fla:
Dist. Court of Appeals (4th Dist. 1992) “Rule 1.510(c) provides for
a hearing. . . . The rule does not provide the trial court with dis­
cretion to decide whether a hearing is required. .. . An order
granting summary judgment on liability determines a party’s
right to the relief requested and to deny either party a hearing
must be construed as a denial of due process.”
17 See, e.g., Armstrong v. Manzo, 380 U.S. 545, 552 (1965) “A
fundamental requirement of due process is the opportunity to be
heard.” See also, Grannis v. Ordean, 234 U.S. 385, 394. “It is an
opportunity which must be granted at a meaningful time and in
a meaningful manner.”; see also Schuman v. Int'l Consumer
Corp., 50 So. 3d 75, 76-77 (Fla. 4th DCA 2010) “ . . . due process
requires fair notice and a real opportunity to be heard and defend
in an orderly procedure before judgment is rendered.”
18 See, e.g., Johnson v. Zerbst, 304 U.S. 458, 58 S.Ct. 1019
(1938) “Subject Matter Jurisdiction is lost after any “Violation of
due process” ”.
19 In State ex rel. Fulton Bag & Cotton Mills v. Burnside, 153
Fla. 599, 602 (Fla. 1943), the [Supreme] court followed Malone,
holding where it appears that a court is legally organized and has
jurisdiction of the subject matter and the adverse parties are
given an opportunity to be heard as required by law, errors or
irregularities, or even wrong doing in the proceedings, short of an
illegal deprivation of an opportunity to be heard, will not render
the judgment void.

18
B. In Both the 11th U.S. Circuit Court’s
Twelve (12) Page Decision and in its Order Deny­
ing Murphy’s Petition for Panel Rehearing, it
Failed to Acknowledge or Consider Murphy’s
Primary Claim, that being the evidenced denials of
due process including the documented denial of Mur­
phy’s “right to be heard” before issuance of the sum­
mary judgment against him, or to acknowledge the
fatal effect those denials of due process had on the
state court’s jurisdiction and Stacy’s entitlement to ab­
solute immunity20, and to the District Court’s justifica­
tion for its decision, after those claims were properly
raised and accompanied by prima facie evidence in his
appellate brief, and reconfirmed in his petition for re­
hearing in which he presented those claimed denials of
due process as the predominant grounds for his appeal.
III. The Pattern of Civil Rights Violations, and
the Apparent Disregard of U.S. Supreme
Court Precedent by Lower Courts Evi­
denced in This Case, May Warrant Scrutiny
The subject state and federal courts’ apparent de­
fiance of This Honorable Court’s decisions and the
number of civil rights violations on record against
them, would seem to warrant extraordinary corrective
measures. The U.S. District Court and the 11th U.S.
20 See, e.g., Bradley v. Fisher, 13 Wall. 335, 20 L.Ed. 646
(1871) ‘Where there is clearly no jurisdiction over the subjectmatter any authority exercised is a usurped authority, and for the
exercise of such authority, when the want ofjurisdiction is known,
no excuse is permitted.”

19
Circuit Court, after failing to apply in reaching their
decisions, the governing laws of the state, and failing
to consider the state court’s obvious violations of Mur­
phy’s right to due process raised before them, then de­
clined to consider Murphy’s properly raised claim of a
“Conspiracy Against Rights”, and Stacy’s complicity in
it that stands fully documented by prima facie evi­
dence in the state court record that Murphy referenced
in its entirety in both his U.S. District Court complaint,
and in his appeal brief.
A. The 11th Circuit Court Declined to Con­
sider Murphy’s Claim of a Conspiracy Against
his Rights by Falsely Claiming “Murphy Failed to
Raise This Argument Before the District Court”
(App. 12, 'll 2), despite him having specifically raised it
by Judicial Notice upon its recognition, which was
docketed as Entry #24 in the District Court record, a
copy of which was furnished to the Circuit Court as
Exhibit #3 to his appeal brief, with that failure to con­
sider such an important issue after it being properly
raised before them, demonstrating an apparent lack of
effort by the Circuit Court’s panelists to perform a
proper review of Murphy’s appeal.
B. The Recorded Actions of the State and
Federal Courts Raise Concerns as to Their Abili­
ties to Properly Administer Justice. The people
must ask in the interest of justice, how a U.S. Circuit
Court could affirm (App. 1) a District Court’s decision
(App. 14) to dismiss a § 1983 suit with prejudice, and
then subsequently deny (App. 24) a petition for panel
rehearing, all based on the District Court’s decision

20

clearly tainted by the disregard of its duty under this
Court’s Erie decision to apply state law, and that evi­
dences the District Court not just overlooked but com­
pletely ignored claims of such importance to the proper
administration of justice as the denial of the peti­
tioner’s 14th Amendment right to be heard, after those
facts were properly raised and fully evidenced before
the Circuit Court in both Murphy’s appeal brief and in
his petition for rehearing, thus bringing in question,
that court’s ability to provide fair and equal justice to
the over forty (40) million Americans that must with
rare exception, rely on the 11th U.S. Circuit Court as
their last real bastion of hope for justice?
C. Jurists in the State and Federal Courts
Chose to Unjustly Withhold Constitutional Pro­
tections. Florida’s Circuit Court for the 18th Judicial
Circuit, the U.S. District Court for the Middle District
of Florida, Orlando Division, and the 11th U.S. Circuit
Court of Appeals, by the collective actions of almost a
dozen jurists, have chosen to withhold constitutional
protections from Murphy that those courts and their
judges are sworn and duty bound to provide. The
courts’ records confirm the failure of any judge that
acted in the subject state and federal cases to address
or acknowledge in any manner, what is now a decade
of civil rights violations and illegal and unethical ac­
tions taken against Murphy by the jurists of the state
court including Stacy, that resulted in the unlawful sei­
zure and sale of his homesteaded property, after those
facts were properly raised before each subsequent

21
judge including the U.S. District Court judge, and the
panelists of the 11th U.S. Circuit Court.
The jurists’ unanimous failure to notice or address
the illegal and/or unethical actions of their colleagues
evidences an aversion by the judges of those courts to
perform their sworn duty to address unethical and/or
illegal actions of fellow legal professionals, judges and
attorneys included21, to the point as in this case, they
willfully violate the constitution and the civil rights of
the people, commit and/or allow to be committed, crim­
inal acts against both the state and the U.S. Constitu­
tion, and conspire with one another against the civil
rights of an innocent party to protect themselves from
accountability to the law, and to parties injured by
their illegal and/or unethical actions.
D. The District and Circuit Courts’ Finding
for Absolute Judicial Immunity Were Unfounded
and Prejudicial. It was properly raised and evi­
denced to both federal courts that Stacy acted without
jurisdiction to enforce the state court’s summary
21 Starting over a decade ago with the first state court judge’s
denials of Murphy’s 14th Amendment rights including his right
to be heard, and continuing through the U.S. District and 11th
U.S. Circuit Courts’ open disregard of the doctrine of Erie Rail­
road Co. v. Tompkins allowing for their findings for absolute im­
munity and their decisions to deny Murphy his right to redress
through his 42 U.S.C. § 1983 suit, the courts and their jurists have
been bound by ethics to notice and properly address the illegal
and/or unethical actions of their fellow legal professionals, with
the records of those courts evidencing each consecutive presiding
jurist’s failure to acknowledge or address the questioned actions
of their predecessors after being properly raised before them.

22

judgment against Murphy that she had been judicially
noticed was issued without him being afforded any “op­
portunity to be heard” and was therefore “void”22, with
her issuance of the writ of possession on 7-10-2017
completing the court’s actions depriving Murphy of his
property while denying him due process, and leaving
her vulnerable to a § 1983 suit23. Stacy was fully no­
ticed of her court’s lack ofjurisdiction that was obvious
by review of the case docket alone which to this day,
confirms by the absence of any “notice” or “hearing”
prior to the summary judgment’s issuance, the denial
of Murphy’s right to be heard. Stacy then, after again
being noticed of her lack of jurisdiction in additional
defense filings, continued to preside over the case, en­
force the void judgment against Murphy, and to deny
him relief against the court’s unethical, illegal, and un­
constitutional actions, evidencing her actions were
taken under “color of law” and in the known “absence
of all jurisdiction”, eliminating by this Court’s previous
22 See, e.g., Elliott v. Lessee ofPeirsol, 26 U.S. 328 - Supreme
Court (1828), Under Federal law which is applicable to all states,
the U.S. Supreme Court stated that if a court is “without author­
ity, its judgments and orders are regarded as nullities. They are
not voidable, but simply void; and form no bar to a recovery
sought, even prior to a reversal in opposition to them. They con­
stitute no justification; and all persons concerned in executing
such judgments or sentences, are considered, in law, as trespass­
ers.”
23 See, e.g., Stump v. Sparkman, 435 U.S. 349, 98 S.Ct. 1099,
55 L.Ed.2d 331-Supreme Court (1978), “The necessary inquiry in
determining whether a defendant judge is immune from suit is
whether at the time he took the challenged action he had jurisdic­
tion over the subject matter before him.”

23

determinations, any entitlement to absolute immun­
ity24, or to qualified immunity as well.

<

E. The Florida Attorney General’s Appear­
ance in Representation of Stacy was Prejudicial
and Presented a “Conflict of Interest”. The Florida
Attorney General’s (also “Moody”) representation of
Stacy denied Murphy valuable protections she was
duty bound to provide him25, was openly prejudicial to
his § 1983 suit and his appeal by its false inference
that Florida law and legal precedent supported Stacy’s
claim that subject matter jurisdiction existed in the
state court case during her tenure as presiding judge,
and presented a “Conflict of Interest”26 in both his
24 See Zeller v. Rankin, 101 S.Ct. 2020, 451 U.S. 939, 68
L.Ed.2d 326 (1981), “When a judge knows that he lacks jurisdic­
tion, or acts in the face of clearly valid statutes expressly depriv­
ing him of jurisdiction, judicial immunity is lost.”
25 The Florida Attorney General is duty bound to represent
the interests of every state citizen including Murphy, against vi­
olations of their civil rights such as those evidenced to have been
committed by Stacy. The Florida Attorney General’s official web­
site defines the “Role and Function of the Attorney General” stat­
ing in pertinent part, “Also housed within the Attorney General’s
Office is the Office of Civil Rights, which investigates and takes
legal action against violations of Floridians’ civil rights.”
26 See: American Bar Association Rule 1.7 Conflict of Inter­
est: Current Clients (a) Except as provided in paragraph (b), a
lawyer shall not represent a client if the representation involves
a concurrent conflict of interest. A concurrent conflict of interest
exists if: (1) the representation of one client will be directly ad­
verse to another client; See also: Rule 1.7(b) Notwithstanding the
existence of a concurrent conflict of interest under paragraph (a),
a lawyer may represent a client if: (3) the representation does not
involve the assertion of a claim by one client against another

24
§ 1983 suit and the subject appeal pursuant to her rep­
resentation of one client’s interests against those of a
concurrent client in the same action.
F. The Florida Attorney General’s Repre­
sentation of Stacy Denied Murphy Civil Rights
Protections Her Office is Duty Bound to Provide.
Having been made fully aware by Murphy’s District
Court complaint and his appeal brief that according to
legal precedent confirmed by multiple Florida Su­
preme Court decisions, the state court’s subject matter
jurisdiction had never been invoked in Murphy’s fore­
closure case, that the Florida and U.S. Supreme Courts’
determinations that the denial of a party’s “oppor­
tunity to be heard” renders a court without subject
matter jurisdiction and its judgments “Void”, and that
Murphy was denied that right in the state court case
by Stacy among others, Moody, in violation of her prior
commitment as State Attorney General to represent
Murphy’s interests, chose to defend Stacy who she was
duty bound to take legal action against, evidencing
Moody’s apparent complicity in the conspiracy to deny
Murphy his protected rights that the state court record
confirms its jurists began a decade earlier27.

client represented by the lawyer in the same litigation or other
proceeding before a tribunal;
27 See 18 U.S.C. § 241 Conspiracy Against Rights, If two or
more persons conspire to injure, oppress, threaten, or intimidate
any person in any State, Territory, Commonwealth, Possession,
or District in the free exercise or enjoyment of any right or privi­
lege secured to him by the Constitution or laws of the United
States, or because of his having so exercised the same; or . . .

25
The people deserve courts that insure their rights,
not deny them. Protecting the original presiding state
court judge from accountability for actions he had taken
that violated the U.S. Constitution and Murphy’s 14th
Amendment rights provided no justification for the
subsequent courts’, their jurists’, and the Florida At­
torney General to further deny his constitutional
rights, more so when it was raised to all, that the orig­
inal state court judge they are protecting is shown be­
yond doubt, to have intentionally withheld any
opportunity to be heard from Murphy while he issued
the summary judgment against him.
Court records evidence that the subject state and
federal court judges, and now the Office of the Florida
Attorney General, have acted in concession to take
every advantage required, legal or otherwise, to in­
sure the illegal and unethical actions of those judges
are not brought to bear in their courts and that Mur­
phy is denied his right to seek redress for damages he
continues to suffer from their violations of his 5th
and 14th Amendment rights, leaving action by This
Honorable Court as Murphy’s last and best hope for
justice.
The Supreme Court should therefore grant this
petition for writ of certiorari in order to reconfirm to
the lower courts, the doctrine to be applied when de­
ciding issues of common law, to again establish with
them, the requisite and foundational requirements of
due process, and to protect the people from future

26

unjust decisions and court actions the 11th Circuit
Court’s findings could encourage.

CONCLUSION
For the foregoing reasons, the Court should grant
a writ of certiorari.
Respectfully submitted,
Timothy P. Murphy
905 Northern Dancer Way, #101
Casselberry, FL 32707
(petitioner, appearing pro se)
November 25, 2020

